No.

 

 

IN THE
Supreme Court of the United States

CHARLES M. HALLINAN,

Petitioner,
Vv.
UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Third Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,006 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 4, 2020.

Colin Casenlh ogan

Wilson-Epes Printing Co., Inc.
